•4

4 ■

No.

ZoIN THE

SUPREME COURT OF THE UNITED STATES

CARLINE CURRY —- PRO SE PETITIONER

FILED
APR 17 2021

v.s

OFFICE OF THE CLERK
SUPREME COURT. U.S.

CITY OF MANSFIEL. et al---- RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
SUPREME COURT OF OHIO 2020-1378 and 2020-1357
(NAME OF COURT THAT LAST RULED ON MERITS OF
CASE)
PETITION FOR A WRIT OF CERTIORARI
Carline Currv (Pro Se)
606 Bowman Street
Mansfield. Ohio 44903
567-274-9130 or 567-3907

RECEIVED
APR 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

1

QUESTION PRESENTED
1. Should Plaintiff Curry been given and Opportunity for
Reemployment as other similarly situated employees upon
retirement excluding the fact that she filed discriminatory
charges against the City under 42 U.S.C 2000 ( e )2, 42 U.S.C
2000 ( e ) 3 and Ohio Revised Code 4112.02: sections 703 of
Title VH and Section 704 of Title VII Civil Rights Act of 1964

2. The Plant Managers job became vacant and Bob Coker and
I both applied. They gave the job to Bob. Bob previously held
the Operations Supervisor Job: which I was qualified for. The
City chose to not fill the position so that I would not have an
opportunity to apply because they knew I was qualified. I have
a Class ID Wastewater License and a Class n Lab Analyst

2

Certification. In the History of the Plant for the last 33 years
there has never
Been a vacancy in that position it was always filled. The City
later trained the Environmental Compliance Supervisor (the
job I did for 30 years and the City denied me an opportunity
for rehire) for a year and gave her the job without posting it.

Should Plaintiff Curry been given an opportunity for
the Operations Supervisor Job and was it not filled
due to retaliation?

3

ORC 4112.02 it is unlawful discriminatory practice.
I. It shall be unlawful for any person to discriminate in any
manner against any other person because that person has opposed
any unlawful discriminatory practice defined in this section or
because that person has made a charge, testified, assisted, or
participated in any manner in any investigation, proceeding, or
hearing under section 41122.01 to 4112.07 of the Ohio Revised
Code and 42 U.S.C. 2000 (e) 2 and 42 USC 2000 (e) 3

42 U.S. Code § 200Qe-3.0ther unlawful employment practices

(a)DlSCRIMINATION FOR MAKING CHARGES, TESTIFYING,
ASSISTING, OR PARTICIPATING IN ENFORCEMENT PROCEEDINGS

It shall be an unlawful employment practice for an employer to
discriminate against any of Ms employees or applicants for
employment, for an employment agency, or joint labor-

4

management committee controlling apprenticeship or other
training or retraining, including on-the-job training programs, to
discriminate against any individual, or for a labor
organization to discriminate against any member thereof or
applicant for membership, because he has opposed any practice
made an unlawful employment practice by this sub-chapter, or
because he has made a charge, testified, assisted, or participated
in any manner in an investigation, proceeding, or hearing under
this sub-chapter.
The Ohio Supreme Court declined to accept Jurisdiction of the
Appeal:
LIST OF PARTIES
[] All parties appear in the caption of the case on the cover page.

5

[X] All parties do not appear in the caption of the case on the cover
page. A list
of all the parties to the proceeding in the court whose judgement is
the subject of
this petition is as follows:
City of Mansfield et al. Mayor Theaker, Dave Remy, (Human
Resource Director), Angelo Klousidias, (Public Works Director)
Solicitor General of the United States, Room 5616, Department of
Justice, 950 Pennsylvania Ave., N.W., Washington, DC 205300001
Attorney General Dave Yost, 30 E. Broad Street; 14 th floor;
Columbus, Ohio 43215

6

t

t

I

28 U.S.C. 451 may apply. No Certification has been granted on the
fact that a Constitutionality of an Act of Congress has been
questioned.

i

7

TABLE OF CONTENTS PAGES

QUESTION PRESENTED AND LIST OF PARTIES —
TABLE OF CONTENTS

7

TABLE OF AUTHORTIES CITED AND STATUES 8 - 9
OPINIONS BELOW AND JURISDICTION 24 - 26
CONSTITUTIONAL AND STATUTORY PROVISION
INVOLVED 26 -27
STATEMENT OF THE CASE

28 - 33

REASON FOR GRANTING THE WRIT
CONCLUSION

33-34
34 -37

INDEX TO APPENDICES

A Thru I

1 -2

8

TABLE OF AUTHORITIES CITED
CASES
Anderson V. Liberty Lobby Inc. 477 U.S. 242,250 (1986)
Boretti V. Wiscomb, 930 F .2d 1150,1156 (6th cir. 1991)
Celotex Corp V. Catrett 477 U.S. 242,250 (1986)
Haines v. Kemer, 404 U.S. 519,520 (1972)
Jones vs. City of Boston 752 F. ed 38 (2014)
McDonnel Douglas Corp vs. Green 411 U.S. 792, 93 S. Ct 1817
New York Time Co v. Sullivan
Vance V. Ball State University
Bell Atlantic Corp. Twombly 550 US 544, 555
STATUTES AND RULES
28 U.S.C 2403(a) may apply
O.R.C Chapter 4112
42 U.S.C. 1981 & 42 U.S.C. 1981(a)
42 U.S.C. 1983

9

42 U.SC. 2000(e)
42 U.SC. 2000e-2 & 3
18 USC 79
18U.S.C. 1621, 1622 & 1623
42 USC 1988(b)
Section 703, 704, 706, and 717 of the Civil Rights Act of 1964
42 USC 2000e -5(b)
29 U.S.C. 211
29 U.S.C 626
42 U.S.C 12117(a)
42 U.S.C. 2000 ff-6

OHIO RULES OF CIVIL PROCEDURES
RULES OF PRACTICE OF THE SUPREME COURT OF
OHIO
The Supreme Court declined to accept jurisdiction

10

7.08(B) (4) JURISDICTION
(B) Decision on jurisdiction upon review of the jurisdictional
memoranda, the Supreme Court will do one of the following:
(1) Accept the appeal and order that the case be briefed in
accordance with the applicable provisions of S.Ct. Prac.R. 16.01
through 16.08;
(2) Accept the appeal and hold the decision in the appeal for
another case that is pending before the Supreme Court;
(3) Accept the appeal and enter judgment summarily; 2013 v 2017
Rules of Practice
Rules of Practice 47 RULES 7.08-7.09
(4) Decline to accept the appeal. In declining to accept an
appeal the Supreme Court has determined that one or more of
the following are applicable after review of the jurisdictional
memoranda: (a) The appeal does not involve a substantial
constitutional question and should be dismissed; (b) The

11

appeal does not involve a question of great general or public
interest; (c) The appeal does not involve a felony; (d) The
appeal does involve a felony, but leave to appeal is not
warranted.
The Ohio Constitution [The 1851 Constitution with
Amendments to 2015]
IV.02 Organization and jurisdiction of Supreme Court

(A) The Supreme Court shall, until otherwise provided by law,
consist of seven
Judges, who shall be known as the chiefjustice and
justices. In case of the absence or disability of the chief
justice, the judge having the period of longest total service
upon the court shall be the acting chief justice. If any
member of the court shall be unable, by reason of illness,
disability or disqualification, to hear, consider and decide a

12

cause or causes, the chiefjustice or the acting chiefjustice
may direct any judge of any court of appeals to sit with the
judges of the Supreme Court in the place and stead of the
absent judge. A majority of the Supreme Court shall be
necessary to constitute a quorum or to render a judgment.
(B)(1) The Supreme Court shall have original jurisdiction in the
following:
(a) Quo warranto;
(b)Mandamus;
(c) Habeas corpus;
(d) Prohibition;
(e) Procedendo;
(f) In any cause on review as may be necessary to its complete
determination;

IB

g) Admission to the practice of law, the discipline of persons so
admitted, and all other matters relating to the practice of law.
2) The Supreme Court shall have appellate jurisdiction as
follows:
(a) In appeals from the courts of appeals as a matter of right in the
following:
(i) Cases originating in the courts of appeals;
(ii) Cases in which the death penalty has been affirmed;
(iii) Cases involving questions arising under the constitution of
the United States or of this state.
(b) In appeals from the courts of appeals in cases of felony on
leave first obtained,

14

(c) In direct appeals from the courts of common pleas or other
courts of record inferior to the court of appeals as a matter of right
in cases in which the death penalty has been imposed;
(d) Such revisory jurisdiction of the proceedings of administrative
officers or
agencies as may be conferred by law;
(e) In cases of public or great general interest, the Supreme
Court may direct any court of appeals to certify its record to
the Supreme Court, and may review and affirm, modify, or
reverse the judgment of the court of appeals;
(f) The Supreme Court shall review and affirm, modify, or reverse
the judgment in any case certified by any court of appeals pursuant
to section 3(B)(4) of this article. ((3(b) (4) missing.)

15

(3) No law shall be passed or rule made whereby any person
shall be prevented from invoking the original jurisdiction of
the Supreme Court.
(C) The decisions in all cases in the Supreme Court shall be
reported, together with the reasons therefor.
(Amended November 8,1994)
BILL OF RIGHTS AMENDMENT 16 & 5
Redress for injury; Due process. §16 all courts shall be open, and
every person, for an injury done him in his land, goods, person, or
reputation, shall have remedy by due course of law, and shall have
justice administered without denial or delay. Suits may he brought
against the state, in such courts and in such manner, as may be
provided by law. (1912)

16

Trial by jury. §5
The right of trial by jury shall be inviolate, except that, in civil
cases, laws may be passed to authorize the rendering of a verdict
by the concurrence of not less than three-fourths of the jury. (1912)
The constitutionality of a statue of a state was drawn into
questioning 42 USC 2000 ( e) 2,42 U.S.C (e ) 3, 42 USC 1983
Deprivation of Rights.. (Jurisdiction of the court, right to redress,
Retaliation);

28 U.S.C. 2403(a) may apply and the complaint is

being served on The Solicitor General of the United States, Room
5616, Department of Justice, 950 Pennsylvania Ave., N. W.
Washington, DC 205300001 and Mr. Dave Yost, The Attorney General of Ohio, 150 East
Gay Street, Columbus, Ohio 43215.

17

§1621. Perjury generally
Whoever— (1) having taken an oath before a competent tribunal,
officer, or person, in any case in which a law of the United States
authorizes an oath to be administered, that he will testify, declare,
depose, or certify truly, or that any written testimony, declaration,
deposition, or certificate by him subscribed, is true, willfully and
contrary to such oath states or subscribes any material matter
which
he does not believe to be true; or (2) in any declaration, certificate,
verification, or statement under penalty of perjury as permitted
under section 1746 of title 28, United States Code, willfully
subscribes as true any material matter which he does not believe to
be true; is guilty of perjury and shall, except as other (18 U.S.C.
Part 1 CHAPTER 79 1621)
§ 1622. Subornation of perjury Whoever procures another to
commit any perjury is guilty of subornation of perjury, and shall be

18

fined under this title or imprisoned not more than five years, or
both
§ 1623. False declarations before grand jury or court (a)
Whoever under oath (or in any declaration, certificate, verification,
or statement under penalty of peijury as permitted under section
1746 of title 28, United States Code) in any proceeding before or
ancillary to any court or grand jury of the United States knowingly
makes any false material declaration or makes or uses any other
information, including any book, paper, document, record,
recording, or other material, knowing the same to contain any false
material declaration, shall be fined under this title or imprisoned
not more than five years, or both, (b) This section is applicable
whether the conduct occurred within or without the United States.
§1981. Equal rights under the law
(a) Statement of equal rights

19

All persons within the jurisdiction of the United States shall
have the same right in every State and Territory to make and
enforce contracts, to sue, be parties, give evidence, and to the full
and equal benefit of all laws and proceedings for the security of
persons and property as is enjoyed by white citizens, and shall be
subject to like punishment, pains, penalties, taxes, licenses, and
exactions of every kind, and to no other.
(b) "Make and enforce contracts" defined
For purposes of this section, the term "make and enforce
contracts" includes the making, performance, modification, and
termination of contracts, and the enjoyment of all benefits,
privileges, terms, and conditions of the contractual relationship.
(c) Protection against impairment

20

The rights protected by this section are protected against
impairment by nongovernmental discrimination and impairment
under color of State law.
1. 42U.S.C. 1981 a
A) Right of recovery
(1) Civil rights
In an action brought by a complaining party under section 706 or
717 of the Civil Rights Act of 1964 [ 42 U.S.C.A. §°2000e5 or 2000e-16 ] against a respondent who engaged in unlawful
intentional discrimination (not an employment practice that is
unlawful because of its disparate impact) prohibited under section
703, 704, or 717 of the Act [ 42 U.S.C.A. §§°2000e-2,2000e-3 ,
or 2000e-16 ], and provided that the complaining party cannot
recover under section 1981 of this title, the complaining party may
recover compensatory and punitive damages as allowed in
subsection (b) of this section, in addition to any relief authorized

21

by section 706(g) of the Civil Rights Act of 1964, from the
respondent
42 U.S.C. § 1983 - U.S. Code - Unannotated Title 42. The Public Health and
Weliare § 1983. Civil action for deprivation ofrights

Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State or Territory or the District of
Columbia, subjects, or causes to be subjected, any citizen of the
United States or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party injured in an
action at law, suit in equity, or other proper proceeding for redress,
except that in any action brought against a judicial officer for an
act or omission taken in such officer's judicial capacity, injunctive
relief shall not be granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the purposes of this

22

section, any Act of Congress applicable exclusively to the District
of Columbia shall be considered to be a statute of the District of
Columbia.
§2000e-2. Unlawful employment practices
(a) Employer practices
It shall be an unlawful employment practice for an employer(1) to fail or refuse to hire or to discharge any individual, or
otherwise to discriminate against any individual with respect to
his compensation, terms, conditions, or privileges of
employment, because of such individual's race, color, religion,
sex, or national origin; or
(2) to limit, segregate, or classify his employees or applicants
for employment in any way which would deprive or tend to
deprive any individual of employment opportunities or

23

otherwise adversely affect his status as an employee, because of
such individual's race, color, religion, sex, or national origin.
§2000e-3. Other unlawful employment practices
(a) Discrimination for making charges, testifying, assisting, or
participating in enforcement proceedings
It shall be an unlawful employment practice for an employer to
discriminate against any of his employees or applicants for
employment, for an employment agency, or joint labormanagement committee controlling apprenticeship or other
training or retraining, including on-the-job training programs, to
discriminate against any individual, or for a labor organization to
discriminate against any member thereof or applicant for
membership, because he has opposed any practice made an
unlawful employment practice by this sub chapter, or because he

24

has made a charge, testified, assisted, or participated in any manner
in an investigation, proceeding, or hearing under this sub chapter.
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review
the judgement below.
OPINIONS BELOW
This case was not heard in federal courts or the United States
district court
[X] For cases from state courts;
The opinion of the highest state court to review the merits appears
at
Appendix____A
[ ] reported at
or,

to the petition and is

25

[ ] has been designated for publication but is not yet reported; or
[X] is unpublished.
The court denied to hear my case on JANUARY 22, 2021,
JURISDICTION
This case was not heard before federal court;
[X] for cases from state courts
PC ] The date on which the highest state court decided my case
was January 22,2021
A copy of that decision appears at Appendix___A
[ ] A timely petition for rehearing was denied by the Court of
Appeals on the following date;
and a copy of the order
denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of Certiorari
was granted to and including

(date)

26

(date) in Application No.

on

[X] The jurisdiction of this Court is invoked under 28 U.S.C.
1257(a).

The court denied to hear my case on January 22, 2021.
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED STATUTES AND RULES

1.05 Trial by jury (1851, amended 1912)
The right of trial by jury shall be inviolate, except that, in civil
cases, laws may be passed to authorize the rendering of a verdict
by the concurrence of not less than three-fourths of the jury. “Ohio
Constitution Bill of Rights”
(As amended September 3, 1912.)

27

1.16 Redress in courts (1851, amended 1912)
All courts shall be open, and every person, for an injury done him
in his land, goods, person, or reputation, shall have remedy by due
course of law, and shall have justice administered without denial or
delay. [Suits against the state.] Suits may be brought against the
state, in such courts and in such manner, as may be provided by
law. “Ohio Constitution bill of Rights”
(As amended September 3, 1912.)
Title IV of the Civil Rights Act
Organizations and Jurisdiction of the Supreme Court section IV of
the Ohio Constitution.
42 U.S.C 2000 ( E ), 42 U.S.C. 2000 (E ) 2 & 3,29 U.S.C 211,
29 U.S.C 626, 42 USC 1217 (A), AND 42 U.S.C. 2000 FF 6; and
Summary Judgement Rule 56 G Bad Faith Affadavit s.

28

STATEMENT OF THE CASE
The City Discriminated against Plaintiff Curry under 42 USC
1981; 1981 (a); 1981 (a); 2000 ( e) 2 Failure to hire; 42 USC
2000 ( e ) 3 Prohibition against discrimination because a
employee made a charge; testified; assisted, or participated in
any manner in an investigation, proceeding or hearing under
this sub chapter. 42 USC Code 1988 (b) states attorney fees
may be awarded
Plaintiff Curry Informed Defendants that she would be retiring: the
reason for earlier than anticipated retirement was because the plant
manager was writing me up on bogus issues, and management was
not showing me support due to Retaliation from me filing litigation
against them for discriminating against me, and failing to promote
me over the years (because of insubordinate, disrespectfully
employees who performed their jobs unsatisfactory): I was
concerned: I might lose my retirement benefits as other minorities

29

had in the past: In order to protect my retirement benefits I retired
on February 1, 2015.
I had informed the City I was retiring and informed the City I
was interested in being rehired or considered for reemployment; as
they had done for other employees; John Vanharlingon
(Wastewater Treatment Plant to train lab personnel; Bobs job /
responsibility they could have hired Alloway, and they would of
trained 8 people for the price of one.) Jill Vanharlingon
(Engineering), Debra Kellner (Finance); Mark Daughtery (Airport),
Jerry Lambert (Water Treatment Plant), I think Angelo was also
rehired back.
I was performing my job satisfactory however, the plant
manager was trying to harass, intimidate, humiliate, and write me
up unjustly to get me fired. So I was somewhat forced to retire to
preserve my retirement and get some financial help to eliminate
some of the stress and mental anguish they caused by causing me a

30

financial hardship, while paying other Supervisors overtime. I was
in management and had no union protection. The protection or
help I had was from the NAACP office .(The City had taken away
my supervisory privileges: the right to discipline and evaluate and
the plant manager took all the supplies and equipment I had stored
in the bathroom).
Jobs that were available in Management were not being posted.
The manager told me he did not have to post them. The plant
manager went out and found someone from Ashland Ohio that he
wanted hired for the Pretreatment Coordinator Job and the City
reclassified and of the job to Environmental Compliance
Supervisor.
The Pretreatment Coordinator job required a Class III License.
The Candidate from Ashland Ohio did not have a Class III
Wastewater License so they changed the job description and
qualifications. I was told she had a degree and a Class I Water

31

License and Wastewater License I think. The City would not give
me any information that I requested. I did not have time to obtain
a degree due to issues with the City and me trying to file litigation
against them and other Obligations, but I had 30 years of
experience on the job and already knew how to do the job and the
new candidate had to be trained. Employees had told me that they
had already hired the candidate before the job was posted. The
City did not give me the same opportunity as other similarly
situated employees. Which is discrimination and retaliation.
The Operations Supervisor position was available and they
decided to leave it unfilled so that I would not have an opportunity
to apply. I was also qualified for this position. They later
promoted tide Environmental Compliance Supervisor to the
Operations Supervisor Job without posting it.
After I retried Mr. Remy also sent me a letter ( February 15,
2016 ) indicating he wasn’t aware of the fact that Marc got all the

32

Pretreatment Files form Commerce Center and Engineering.
Which was not true. I sent him a email. He said, “he did not feel it
was his obligation or responsibility to provide me information to
show I was in charge so I could resubmit my Class IV Thesis”. I
waited on them from 2010 to present to say I was in charge to
resubmit my application to include missing information that the
Ohio Environmental Protection Agency wanted included. I could
have gotten a job as a Class IV Licensed Operator making 60,000
to 75,000 dollars a year. Jim Lichtenwalter, ex City Engineer sent
a email and told them I was in charge.
I also requested a list of employees who retired and they rehired
back and they did not provide that either.
Not providing me an opportunity for reemployment, not filling the
Operations Supervisor job, and a year later giving the job to the
Environmental Compliance Supervisor without posting it, and not
admitting I was in charge so that I could have an opportunity to

33

resubmit my Class IV application was retaliation and unlawful
discrimination practices under Ohio and Federal Law
41 O.R.C. 4112.02 and 42 USC 2000 ( e) 2 and 42 USC 2000 (e )
3.

REASON FOR GRANTING THE PETITION
The Petition should be granted because the City of Mansfield
discriminated and retaliated against me under Title VH of Civil
Rights Act of 1964; 42 U.S. C 2000 (e) 2 & 3, and O.R.C. Chapter
4112, they answered the complaint in defenses under perjury, fraud,
and subordination of peijury.The complaint was answered in bad
faith.
“Legal Dictionary | Law.com”
dictionary .law.com/Default.aspx?selected=21
“Bad faith. 1) n. intentional dishonest act by not
fulfilling legal or contractual obligations, misleading another,
entering into an agreement without the intention or means to fulfill

34

it, or violating basic standards of honesty in dealing with
others.”
Paragraph G of Summary Judgement Rule 56 states” Affidavits
made in bad faith, “the court shall forthwith order the party
employing them to pay to the other party
the amount of the reasonable expenses which the filing of the
affidavits caused the other party to incur, including reasonable
attorney's fees, and any offending party, or attorney may be
adjudged guilty of contempt.
CONCLUSIONS
Plaintiff Curry was discriminated and retaliated against and treated
differently than other similarly situated employees and is entitled
to relief as requested in the initial complaint. Summary Judgement
should have been awarded for a Bad Faith Affidavit under Rule 56
(g) and Preponderance of Evidence. The City didn’t answer any
questions or provide any information I requested. The City did not

35

admit I was in charge so I could resubmit my Class IV application;
they did not answer which employees were rehired back and they
did not give me an opportunity to return to work and they
eliminated the Operations Supervisor Job. Why is it that for over
30 Years there is an Operations Supervisors Job and when I am
qualified for the job, they eliminate the position and allocate some
of the duties to the previous position I had? A practice that has
been done in the past; when a black person is qualified for a job,
they eliminate the position and fill it at a later date (Which is
discrimination) and when there is a problem that a white candidate
can’t solve they get a consultant: when other races/ ethnicities
can’t solve a problem they are incompetent. The City submitted
fraudulent answer, in ten defenses, under perjury, fraud and
subornation of Peijury, and they denied all allegations. McDonnel
Douglas vs. Green 411 us 792 (Discharge/ Hiring Practices, Haines
v. Kemer 404 US 519,520 the right to due process and the City

36

should have had to provide all information requested and not be
allowed to submit affidavits under Perjury and Fraud.
In order to prove a disparate treatment claim an employee must
present enough evidence to allow the judge or jury to infer that
discrimination took place. Primia facie.
The motion for Summary Judgement was made for the
reason that only reasonable minds could come to a conclusion that
the plaintiff was subject to adverse and disparate conditions,
There are no genuine issues of material fact and Plaintiff is entitled
to Judgement as a matter of law and should be granted the writ and
reversal of the lower court decision in her favor.

37

Respectfully submitted

Date:

/£? c)-CQ~l
•line Curry Pro Se
606 Bowman Street
Mansfield, Ohio 44903
567-274-9130 and 419-709-9716

38

Appendix A -1

APPENDIX A
A1-A4

Lower Court decision. Court gave me two cases should

be the same case.
APPENDIX B
Bl- B5 Complaint to Equal Employment Opportunity Committee;
Complaint on page B5 tells how in 1998 Bob was promoted over
me for Operator Supervisor job no license. He better fit the City’s
need. They then waited for him to get his Class HI License in
2007 and promoted him within 60 days to Operations Supervisor:
I have had my Class III since 1986; While they wouldn’t sign my
application to resubmit my Application for my Class IV Thesis
from 2010 to present.. I became eligible to apply for the Class IV
Wastewater Thesis in 2007 due to a Rule change.

